1a
APPENDIX A
Filed: May 2, 2019
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
ROXANNE TORRES,
Plaintiff - Appellant,
v.
JANICE MADRID;
RICHARD WILLIAMSON,
Defendants - Appellees.
No. 18-2134
(D.C. No. 1:16-CV-01163-LF-KK)
(D. N.M.)
ORDER AND JUDGMENT1

After examining the briefs and appellate record, this panel
has determined unanimously to honor the parties’ request for a
decision on the briefs without oral argument. See Fed. R. App. P.
34(f); 10th Cir. R. 34.1(G). The case is therefore submitted without oral argument. This order and judgment is not binding precedent, except under the doctrines of law of the case, res judicata,
and collateral estoppel. It may be cited, however, for its
1

2a
Before BRISCOE, McKAY, and LUCERO, Circuit
Judges.
In this excessive-force case, Roxanne Torres appeals from a district court order that granted the defendants’ motion for summary judgment on the basis
of qualified immunity. Exercising jurisdiction under
28 U.S.C. §1291, we affirm.
BACKGROUND
Early in the morning on July 15, 2014, New Mexico State Police officers went to an apartment complex
in Albuquerque to arrest a woman, Kayenta Jackson,
who was “involved with an organized crime ring.”
Aplt. App. at 120. The officers saw two individuals
standing in front of the woman’s apartment next to a
Toyota FJ Cruiser. The Cruiser was backed into a
parking spot, with cars parked on both sides of it. The
officers, who were wearing tactical vests with police
markings, decided to make contact with the two individuals in case one was the subject of their arrest warrant.
As the officers approached the Cruiser, one of the
individuals ran into the apartment, while the other
individual, Torres, got inside the Cruiser and started
the engine. At the time, Torres was “trip[ping] … out”

persuasive value consistent with Fed. R. App. P. 32.1 and 10th
Cir. R. 32.1.

3a
from having used meth “[f]or a couple of days.” Id. at
108.
Officer Richard Williamson approached the
Cruiser’s closed driver-side window and told Torres
several times, “Show me your hands,” as he perceived
Torres was making “furtive movements … that [he]
couldn’t really see because of the [Cruiser’s] tint[ed]”
windows. Id. at 124 (internal quotation marks omitted). Officer Janice Madrid took up a position near the
Cruiser’s driver-side front tire. She could not see who
the driver was, but she perceived the driver was making “aggressive movements inside the vehicle.” Id. at
115.
According to Torres, she did not know that Williamson and Madrid were police officers, and she
could not hear anything they said. But when she
“heard the flicker of the car door” handle, she
“freak[ed] out” and “put the car into drive,” thinking
she was being carjacked. Id. at 205.
When Torres put the car in drive, Officer Williamson brandished his firearm. At some point, Officer
Madrid drew her firearm as well. Torres testified that
she “stepped on the gas … to get away,” and the officers “shot as soon as the [Cruiser] creeped a little inch
or two.” Id. at 206. Officer Madrid testified that the
Cruiser “drove at [her]” and she fired “at the driver
through the windshield” “to stop the driver from running [her] over.” Id. at 114. Officer Williamson testified that he shot at the driver because he feared being
“crush[ed]” between the Cruiser and the neighboring

4a
car, as well as “to stop the action of [the Cruiser] going
towards [Officer] Madrid.” Id. at 125.
Two bullets struck Torres. She continued forward,
however, driving over a curb, through some landscaping, and onto a street. After colliding with another vehicle, she stopped in a parking lot, exited the Cruiser,
laid down on the ground, and attempted to “surrender” to the “carjackers” (who she believed might be in
pursuit). Id. at 208.
Torres “was [still] tripping out bad.” Id. She asked
a bystander to call police, but she did not want to wait
around because she had an outstanding arrest warrant. So, she stole a Kia Soul that was left running
while its driver loaded material into the trunk. Torres
drove approximately 75 miles to Grants, New Mexico,
and went to a hospital, where she identified herself as
“Johannarae C. Olguin.” Id. at 255. She was airlifted
to a hospital in Albuquerque, properly identified, and
arrested by police on July 16, 2014. She ultimately
pled no contest to three crimes: (1) aggravated fleeing
from a law-enforcement officer (Officer Williamson);
(2) assault upon a police officer (Officer Madrid); and
(3) unlawfully taking a motor vehicle.
In October 2016, Torres filed a civil-rights complaint in federal court against Officers Williamson
and Madrid. She asserted one excessive-force claim
against each officer, alleging that the “intentional discharge of a fire arm [sic] … exceeded the degree of
force which a reasonable, prudent law enforcement officer would have applied.” Id. at 15, 16. She also asserted a claim against each officer for conspiracy to

5a
engage in excessive force, alleging that the officers
had “formed a single plan through non-verbal communication … to use excessive force.” Id. at 15, 16.
The district court construed Torres’s complaint as
asserting the excessive-force claims under the Fourth
Amendment, and the court concluded that the officers
were entitled to qualified immunity. It reasoned that
the officers had not seized Torres at the time of the
shooting, and without a seizure, there could be no
Fourth Amendment violation.
DISCUSSION
I. Standards of Review
“We review the district court’s summary judgment decision de novo, applying the same standards
as the district court.” Punt v. Kelly Servs., 862 F.3d
1040, 1046 (10th Cir. 2017). Summary judgment is required when “there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a).
Ordinarily, once the moving party meets its initial
burden of demonstrating the absence of a genuine issue of material fact, the burden shifts to the nonmoving party to set forth specific facts showing that there
is a genuine triable issue. See Schneider v. City of
Grand Junction Police Dep’t, 717 F.3d 760, 767 (10th
Cir. 2013). But where, as here, a defendant seeks
summary judgment on the basis of qualified immunity, our review is somewhat different.

6a
“When a defendant asserts qualified immunity at
summary judgment, the burden shifts to the plaintiff,
who must clear two hurdles in order to defeat the defendant’s motion.” Riggins v. Goodman, 572 F.3d
1101, 1107 (10th Cir. 2009). First, “[t]he plaintiff
must demonstrate on the facts alleged … that the defendant violated [her] constitutional or statutory
rights.” Id. While “we ordinarily accept the plaintiff’s
version of the facts,” we do not do so if that version “is
blatantly contradicted by the record, so that no reasonable jury could believe it.” Halley v. Huckaby, 902
F.3d 1136, 1144 (10th Cir. 2018) (internal quotation
marks omitted), cert. denied, 2019 WL 358389 (U.S.
March 18, 2019) (No. 18-986). Second, the plaintiff
must show “that the right was clearly established at
the time of the alleged unlawful activity.” Riggins,
572 F.3d at 1107. “If, and only if, the plaintiff meets
this two-part test does a defendant then bear the traditional burden of the movant for summary judgment—showing that there are no genuine issues of
material fact and that he or she is entitled to judgment as a matter of law.” Nelson v. McMullen, 207
F.3d 1202, 1206 (10th Cir. 2000) (internal quotation
marks omitted).
As explained below, Torres’s claims fail under the
first prong of the qualified-immunity analysis.
II. Excessive Force
“We treat claims of excessive force as seizures
subject to the Fourth Amendment’s objective requirement for reasonableness.” Lindsey v. Hyler, 918 F.3d
1109, 1113 (10th Cir. 2019) (internal quotation marks

7a
omitted). Thus, “[t]o establish [her] claim, [Torres] …
must show both that a seizure occurred and that the
seizure was unreasonable.” Farrell v. Montoya, 878
F.3d 933, 937 (10th Cir. 2017) (internal quotation
marks omitted). Consequently, “[w]ithout a seizure,
there can be no claim for excessive use of force” under
the Fourth Amendment. Id. (internal quotation
marks omitted).
We agree with the district court that Torres failed
to show she was seized by the officers’ use of force.
Specifically, the officers fired their guns in response
to Torres’s movement of her vehicle. Despite being
shot, Torres did not stop or otherwise submit to the
officers’ authority. Although she exited her vehicle in
a parking lot some distance away and attempted to
surrender, her intent was to give herself up to “carjackers.” Indeed, she testified that she did not want to
wait around for police to arrive because she had an
outstanding warrant for her arrest. She then stole a
car and resumed her flight. She was not taken into
custody until after she was airlifted back to a hospital
in Albuquerque and identified by police.
These circumstances are governed by Brooks v.
Gaenzle, 614 F.3d 1213, 1223-24 (10th Cir. 2010),
where this court held that a suspect’s continued flight
after being shot by police negates a Fourth Amendment excessive-force claim. This is so, because “a seizure requires restraint of one’s freedom of movement.” Id. at 1219 (internal quotation marks omitted).
Thus, an officer’s intentional shooting of a suspect
does not effect a seizure unless the “gunshot … terminate[s] [the suspect’s] movement or otherwise

8a
cause[s] the government to have physical control over
him.” Id. at 1224.
Here, the officers’ use of deadly force against
Torres failed to “control [her] ability to evade capture
or control.” Id. at 1223 (internal quotation marks
omitted). Because Torres managed to elude police for
at least a full day after being shot, there is no genuine
issue of material fact as to whether she was seized
when Officers Williamson and Madrid fired their
weapons into her vehicle. See id. (rejecting plaintiff’s
contention that “his shooting alone constitute[d] a seizure,” given that “he continued to flee without the
deputies’ acquisition of physical control” and “remained at large for days”); see also Farrell, 878 F.3d
at 939 (concluding that plaintiffs were not seized
when an officer fired his gun at them, because they
continued fleeing for several minutes). Without a seizure, Torres’s excessive-force claims (and the derivative conspiracy claims) fail as a matter of law.2

Torres argues that Officers Williamson and Madrid cannot
dispute whether she was seized because they did not plead lack
of seizure as an affirmative defense. But seizure is not an affirmative defense, it is an element of a Fourth Amendment excessiveforce claim. See Farrell, 878 F.3d at 937.
2

Torres also complains that the officers did not argue lack of
seizure until their reply brief in support of summary judgment.
But in the seven months between the filing of the officers’ reply
brief and the district court’s grant of summary judgment, Torres
neither sought to file a supplemental opposition to address the
officers’ legal argument nor requested leave to marshal “facts essential to justify [her] opposition,” Fed. R. Civ. P. 56(d).

9a
We, therefore, determine that the district court
properly entered summary judgment in favor of Officers Williamson and Madrid on the basis of qualified
immunity.
CONCLUSION
The judgment of the district court is affirmed.
Entered for the Court

Monroe G. McKay Circuit Judge

Finally, to the extent Torres summarily asserts that a seizure occurred because her “vehicle was shot up and rendered
undrivable,” Aplt. Opening Br. at 22, we do “not consider issues
adverted to in a perfunctory manner, unaccompanied by some
effort at developed argumentation,” Armstrong v. Arcanum Grp.,
Inc., 897 F.3d 1283, 1291 (10th Cir. 2018) (ellipsis and internal
quotation marks omitted).

10a
APPENDIX B
Filed August 30, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
ROXANNE TORRES,
Plaintiff,
v.

1:16-cv-01163-LF-KK

JANICE MADRID et al.,
Defendants.
MEMORANDUM OPINION AND ORDER
THIS MATTER comes before the Court on defendants Janice Madrid and Richard Williamson’s
Amended Motion for Summary Judgment on the Basis of Qualified Immunity and Other Grounds.
Doc. 65. Plaintiff Roxanne Torres opposes the motion.
Doc. 76. For the following reasons, the Court
GRANTS defendants’ motion.
I.

Undisputed Material Facts

On Tuesday morning, July 15, 2014, New Mexico
State Police officers went to an apartment complex in
Albuquerque to serve an arrest warrant on a person
named Kayenta Jackson. The officers believed Ms.
Jackson was a resident of apartment number 22. The
arrest warrant for Ms. Jackson was for white collar

11a
crimes, but she also was suspected of having been involved in drug trafficking, murder, and other violent
crimes. Defendants Janice Madrid and Richard Williamson were two of the police officers involved.
Officer Madrid and Officer Williamson parked
their unmarked patrol vehicle near a 2010 black and
white Toyota FJ Cruiser. Plaintiff Roxanne Torres
was in the Toyota FJ Cruiser with her motor running.
She had backed into her parking spot, and there were
cars on either side of her. Officers Madrid and Williamson were wearing tactical vests and dark clothing. Their clothing clearly identified them as police officers, but Ms. Torres testified that she is unable to
read and write because of a learning disability.
Officers Madrid and Williamson attempted to
open the locked door of the Toyota FJ Cruiser in
which Ms. Torres was sitting. Ms. Torres saw one person standing at her driver’s side window, and another
at the front tire of her car. Although the officers repeatedly shouted, “Open the door!,” Ms. Torres
claimed she could not hear them because her windows
were rolled up. Ms. Torres thought she was the victim
of an attempted car-jacking, so she drove forward.
Both officers testified that they believed Ms. Torres
was going to hit them with her car, and that they were
in fear for their lives. Ms. Torres claims that neither
officer was in harm’s way. Both officers fired their
duty weapons at Ms. Torres. Ms. Torres did not stop.
Instead, Ms. Torres continued to drive forward,
over a curb and landscaping, and she then left the
area. She drove to a commercial area, lost control of

12a
her car, and stole a different car that had been left
running in a parking lot. She then drove to Grants,
New Mexico. Ms. Torres first noticed that she had
been shot when she got to Grants, and she went to the
hospital for treatment. She stayed in the hospital one
day.
The following day, on July 16, 2014, Ms. Torres
was charged by criminal complaint with two counts of
aggravated assault with a deadly weapon upon a
peace officer, and one count of the unlawful taking of
a motor vehicle. Doc. 65-5. She was taken into custody
the same day. Doc. 65-6 at 3. She was indicted on
these charges two weeks later, on July 30, 2014.
Doc. 65-6. Count 1 of the indictment identified Officer
Williamson as the victim, and count 2 of the indictment identified Officer Madrid as the victim. Id. On
March 31, 2015, Ms. Torres pled no contest to aggravated fleeing from a law enforcement officer, in violation of N.M. STAT. ANN. § 30-22-1.1, a lesser included
offense of count 1 of the indictment. Doc. 65-7 at 1.
She also pled no contest to assault upon a peace officer, in violation of N.M. STAT. ANN. § 30-22-21, a
lesser included offense of count 2 of the indictment.
Id. In addition, she pled no contest to count 3 of the
indictment, which was the unlawful taking of a vehicle charge. Id.
II.

The Complaint

In counts I and III of her complaint, Ms. Torres
alleges that Officer Madrid and Officer Williamson,
respectively, through the intentional discharge of
their weapons, “exceeded the degree of force which a

13a
reasonable, prudent law enforcement officer would
have applied under these same circumstances.” Doc. 1
¶¶ 14, 21. In counts II and IV,1 Ms. Torres alleges that
Officers Madrid and Williamson conspired together to
use excessive force against her. Id. ¶¶ 17, 24. In other
words, all of Ms. Torres’s claims are excessive force
claims under the Fourth Amendment.
III. Discussion
The defendants argue that they are entitled to
qualified immunity on all of Ms. Torres’s excessive
force claims not only because the officers’ use of
deadly force was reasonable under the circumstances,
but also because Ms. Torres’s claims are barred under
the Heck2 doctrine. Doc. 65 at 9-18. They further contend that her excessive force claims fail because she
was never seized, and without a seizure, there can be
no Fourth Amendment excessive force claim. Doc. 82
at 10-11. Because I agree that the undisputed material facts show that Ms. Torres was never seized, she
cannot prevail on her claims that the officers’ used

The complaint mistakenly identifies count IV as count II. Doc. 1
at 5.

1

In Heck v. Humphrey, the Supreme Court held that a plaintiff
cannot bring a § 1983 civil rights claim based on actions whose
unlawfulness would render an existing criminal conviction invalid. 512 U.S. 477, 486-87 (1994). If, on the other hand, a court
determines that a plaintiff’s civil rights claim, even if successful,
would not necessarily demonstrate the invalidity of a criminal
conviction, the action may proceed absent some other bar to the
suit. Id. at 487.
2

14a
excessive force in effecting a seizure. I therefore grant
defendants’ motion.
A.

Legal Standard for Summary Judgment Motions

Summary judgment will be granted “if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” FED. R. CIV. P. 56(a). A genuine
dispute exists if “the evidence is such that a reasonable jury could return a verdict for the nonmoving
party” on the issue. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986). “Only disputes over facts
that might affect the outcome of the suit under the
governing law will properly preclude the entry of summary judgment.” Id.
The movant bears the initial burden of establishing that there is no genuine issue as to any material
fact and that the movant is entitled to judgment as a
matter of law. Celotex Corp. v. Catrett, 477 U.S. 317,
323-24 (1986). “[T]he movant need not negate the
non-movant’s claim, but need only point to an absence
of evidence to support the non-movant’s claim.” Kannady v. City of Kiowa, 590 F.3d 1161, 1169 (10th Cir.
2010) (quoting Sigmon v. CommunityCare HMO, Inc.,
234 F.3d 1121, 1125 (10th Cir. 2000)). If this burden
is met, the non-movant must come forward with specific facts, supported by admissible evidence, which
demonstrate the presence of a genuine issue for trial.
Celotex, 477 U.S. at 324. The non-moving party cannot rely upon conclusory allegations or contentions of
counsel to defeat summary judgment. See Pueblo

15a
Neighborhood Health Ctrs., Inc. v. Losavio, 847 F.2d
642, 649 (10th Cir. 1988). Rather, the non-movant has
a responsibility to “go beyond the pleadings and designate specific facts so as to make a showing sufficient
to establish the existence of an element essential to
[his] case in order to survive summary judgment.”
Johnson v. Mullin, 422 F.3d 1184, 1187 (10th Cir.
2005) (alteration in original) (internal quotation
marks omitted).
At the summary judgment stage, the Court must
view the facts and draw all reasonable inferences in
the light most favorable to the non-movant. Scott v.
Harris, 550 U.S. 372, 378 (2007). The Court’s function
“is not … to weigh the evidence and determine the
truth of the matter but to determine whether there is
a genuine issue for trial.” Anderson, 477 U.S. at 249.
There is no issue for trial “unless there is sufficient
evidence favoring the nonmoving party for a jury to
return a verdict for that party.” Id. Summary judgment may be granted where “the evidence is merely
colorable, or is not significantly probative.” Id. at 24950 (internal citations omitted).
B.

Section 1983 Claims and Qualified Immunity Generally

Section 1983 states in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of
any State … subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to
the deprivation of any rights, privileges, or

16a
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress.
42 U.S.C. § 1983. To establish a claim under § 1983, a
plaintiff must prove that a defendant acted under
color of state law to deprive the plaintiff of a right,
privilege, or immunity secured by the Constitution or
the laws of the United States. West v. Atkins, 487 U.S.
42, 48 (1988).
Qualified immunity shields government officials
performing discretionary functions from liability for
civil damages unless their conduct violates clearly established statutory or constitutional rights of which a
reasonable person would be aware. Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). Under the Tenth Circuit’s two-part test for evaluating qualified immunity,
the plaintiff must show (1) that the defendant’s conduct violated a constitutional or statutory right, and
(2) that the law governing the conduct was clearly established when the alleged violation occurred. Baptiste v. J.C. Penney Co., 147 F.3d 1252, 1255 (10th Cir.
1998); accord Tonkovich v. Kan. Bd. of Regents, 159
F.3d 504, 516 (10th Cir. 1998). For a right to be clearly
established, “[t]he contours of the right must be sufficiently clear that a reasonable official would understand that what he [or she] is doing violates that
right.” Anderson v. Creighton, 483 U.S. 635, 640
(1987). Unless both prongs are satisfied, the defendant will not be required to “engage in expensive and
time consuming preparation to defend the suit on its
merits.” Siegert v. Gilley, 500 U.S. 226, 232 (1991).

17a
C.

Section 1983 Excessive Force Claims

Claims of excessive force under § 1983 fall within
the Fourth Amendment. Estate of Larsen ex rel. Sturdivan v. Murr, 511 F.3d 1255, 1259 (10th Cir. 2008)
(An excessive force claim is treated as a seizure subject to the Fourth Amendment’s reasonableness requirement.). The Fourth Amendment provides that
“[t]he right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated ….” U.S.
CONST. amend. IV. “The Fourth Amendment covers
only ‘searches and seizures.’” City of Sacramento v.
Lewis, 523 U.S. 833, 843 (1998). Ms. Torres makes no
allegation that APD officers searched her. Thus, the
issue in this case is whether APD officers seized Ms.
Torres within the meaning of the Fourth Amendment.
To prove an excessive force claim under the
Fourth Amendment, Ms. Torres must prove that the
force used to effect a seizure was objectively unreasonable under the totality of the circumstances. Estate of Larsen, 511 F.3d at 1259. To prevail, Ms.
Torres first “must show … that a ‘seizure’ occurred ….’” Childress v. City of Arapaho, 210 F.3d
1154, 1156 (10th Cir. 2000). A seizure requires the
“intentional acquisition of physical control” of the person being seized. Id. “[W]ithout a seizure, there can
be no claim for excessive use of force.” Jones v. Norton,
809 F.3d 564, 575 (10th Cir. 2015).
The Tenth Circuit’s decision in Farrell v. Montoya, 878 F.3d 933 (10th Cir. 2017) controls the outcome of this case. In that case, Ms. Farrell was driving

18a
a minivan with her five children inside when a New
Mexico state police officer pulled her over for speeding
near Taos, New Mexico. Id. at 934. The officer explained to Ms. Farrell that she could either pay a fine
or go to court within 30 days, but that she needed to
decide which route she wanted to take. Id. at 935. Ms.
Farrell refused to make a decision, and as the officer
walked back to his car to inform the dispatcher what
was happening, Ms. Farrell drove away. Id. The officer followed Ms. Farrell with his sirens on, and Ms.
Farrell once again pulled over. Id. The officer went to
the minivan, opened the door, and ordered Ms. Farrell
to get out. Id. The children started screaming, and a
child got out of the minivan. Id. The officer drew his
Taser and pointed it at the child. Id. Ms. Farrell
thought the Taser was a gun. Id. The child got back
in the minivan, but Ms. Farrell refused to comply with
the officer’s order to get out of the van because she
was worried that the officer would not be peaceful. Id.
The officer called for backup and continued to try to
get Ms. Farrell to comply with his orders. Id. At one
point, Ms. Farrell got out of the minivan to speak to
the officer, but she again got back in, and again refused to comply with the officer’s commands. Id. As
two other officers responded to the scene, the situation became more chaotic. See id. at 935-36. The original officer pointed his Taser inside the van and at one
of the children, and eventually pulled out his baton
and yelled, “Get them out!” Id. A second officer drew
his gun and shouted, “Open the fucking door!” Id. The
third officer also drew his gun, and the officer with
the baton smashed the rear passenger window as the
officers attempted to get the Farrells to comply with
their commands. Id. at 936.

19a
Eventually, Ms. Farrell again drove away, and
one of the officers fired three shots toward the
minivan. Id. No bullet hit either the minivan or its
occupants; the officer testified that he was aiming at
the left rear tire. Id. The van neither slowed nor
stopped, and each of the three officers returned to
their cars and chased the minivan at high speeds. Id.
The Farrells claimed that they called 911 during the
chase and tried to find a police station to pull into because they were afraid that the three officers chasing
them would harm or kill them. Id. After about five
minutes, the Farrells drove into a hotel parking lot
and surrendered. Id.
The Farrells filed suit and claimed that the officer
who fired shots at the minivan violated their Fourth
Amendment rights by using excessive force against
them. Id. The Tenth Circuit held that because the
shots did not result in a seizure, there could be no excessive force claim. Id. at 937. The court explained:
In short, when [the officer] fired at the van,
the Farrells were fleeing. Though they had
been seized moments before, that seizure
ended when they no longer submitted to the
officers’ authority. And [the officer]’s shots
themselves did not effect a seizure because
the van continued its departure. The Farrells’
alleged intent to submit when they could
reach a police station was irrelevant because
their conduct—the flight from the officers—
did not manifest submission. As there was no
seizure, there could be no unreasonable seizure, even if [the officer] was using deadly

20a
force. The Farrells’ claims against [the officer]
fail for lack of any violation of the Fourth
Amendment.
Id. at 939. The court held that the officer was entitled
to summary judgment in his favor on the Farrells’ excessive force claims. Id.
Here, there is no dispute that Ms. Torres did not
stop when the officers fired their guns at her. In fact,
she never stopped in response to police action. She
drove to Grants—approximately 75 miles from Albuquerque—before she stopped. And she stopped then
only because she noticed that she had been shot and
needed medical treatment. Because the officers did
not stop Ms. Torres by shooting at her, there was no
seizure, and she cannot prevail on her claims of excessive force. Because there was no seizure, there was no
violation of Ms. Torres’ Fourth Amendment rights.
Defendants are entitled to summary judgment in
their favor on all four of Ms. Torres’ excessive force
claims against them.
IV. Conclusion
For the foregoing reasons, the Court GRANTS Defendants’ Amended Motion for Summary Judgment
on the Basis of Qualified Immunity and Other
Grounds (Doc. 65). The Court dismisses this case with
prejudice.
IT IS SO ORDERED.
/s/ Laura Fashing
Laura Fashing
United States Magistrate Judge

21a
APPENDIX C
Filed: September 22, 2017
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
ROXANNE TORRES,
Plaintiff,
v.

1:16-cv-01163-LF-KK

JANICE MADRID et al.,
Defendants.
MEMORANDUM OPINION AND ORDER
THIS MATTER comes before the Court on defendants Janice Madrid and Richard Williamson’s Motion
to Dismiss or Motion for Judgment on the Pleadings,
which was fully briefed on May 30, 2017. Docs. 32, 34,
36, 37. Defendants’ motion is based on qualified immunity and the doctrine announced in Heck v.
Humphrey, 512 U.S. 477 (1994), which held that a
plaintiff cannot bring a § 1983 civil rights claim based
on actions whose unlawfulness would render an existing criminal conviction invalid. Id. at 486-87. Because
the information contained in the complaint—even
when combined with the information in the plea and
disposition agreement attached to defendants’ motion—is insufficient to conclude that defendants are
entitled to qualified immunity, or that the Heck

22a
doctrine bars plaintiff Roxanne Torres’s claims, the
Court DENIES defendants’ motion.
I.

Relevant Facts

This case arises out of an incident that occurred
in July, 2014. The facts are taken from the allegations
in Ms. Torres’s complaint, which the Court assumes
are true for the purpose of this motion. On the morning of Tuesday, July 15, 2014, New Mexico State Police officers went to an apartment complex in Albuquerque to serve an arrest warrant on a person
named Kayenta Jackson.
Doc. 1 ¶ 5. Defendants Janice Madrid and Richard Williamson1 were two of the police officers involved. See id. ¶¶ 2, 3, 6, 7, 8, 10.
Officer Madrid and another officer parked their
unmarked patrol vehicle in front of a 2010 black and
white Toyota FJ Cruiser. Id. ¶ 6. Officers Madrid and
Williamson were in tactical vests and dark clothing,
which made it impossible for Ms. Torres to identify
them as police officers. See id. ¶ 7.
Officers Madrid and Williamson attempted to
open the locked door of the car in which Ms. Torres
Although the complaint does not specifically state that Officer Williamson was at the apartment complex, the complaint
refers to “defendants” in paragraphs 7, 8 and 10. Because the
only two defendants named in the complaint are Officers Madrid
and Williamson, the Court assumes that all references to “defendants” in the complaint are to both Officer Madrid and Officer Williamson.

1

23a
had been sleeping. Id. ¶ 8. (Although it is not clear
from the complaint whether this car is the Toyota FJ
Cruiser, the Court assumes it was based on the background information contained in the defendants’ motion. See Doc. 32 at 2.) Ms. Torres thought she was the
victim of an attempted car-jacking, so she attempted
to leave the parking lot in her car (presumably the FJ
Cruiser). Doc. 1 ¶ 8. Ms. Torres was not armed, and
she did nothing to suggest she was armed or had any
type of weapon. Id. ¶ 9. When Ms. Torres attempted
to exit the parking lot, both Officer Madrid and Officer Williamson were standing beside her car, not in
front of it. Id. Nonetheless, both officers drew their
duty weapons and shot at Ms. Torres. Id. ¶ 10.
Ms. Torres was hit twice in her back. Id. Her vehicle
also was struck multiple times. Id. Ms. Torres managed to get to a hospital where she was treated for
gunshot wounds to her back in addition to other injuries. Id. ¶ 11. These injuries caused Ms. Torres pain,
suffering, disfiguration, and scarring, and will result
in future medical expenses. Id. ¶ 10.
According to the plea and disposition agreement
attached to defendants’ motion (hereafter “plea agreement”), in March 2015, Ms. Torres pled no contest to
aggravated fleeing from a law enforcement officer, in
violation of N.M. STAT. ANN. § 30-22-1.1, and also to
assault upon a peace officer, in violation of N.M. STAT.
ANN. § 30-22-21. Doc. 32-1 at 1. The events that gave
rise to these two charges took place “on or about the
15th day of July, 2014.” Id. Neither the law enforcement officer nor the peace officer involved in either
offense is identified in the plea agreement. See id.

24a
II.

The Complaint

In counts I and III of the complaint, Ms. Torres
alleges that Officer Madrid and Officer Williamson,
respectively, through the intentional discharge of
their weapons, “exceeded the degree of force which a
reasonable, prudent law enforcement officer would
have applied under these same circumstances.” Id.
¶¶ 14, 21. In counts II and IV,2 Ms. Torres alleges
that Officers Madrid and Williamson conspired together to use excessive force against her. Id. ¶¶ 17,
24.
III. Discussion
The defendants argue they are entitled to qualified immunity on all of Ms. Torres’s excessive force
claims under the Heck doctrine. Doc. 32 at 5-9. They
contend that her March 2015 convictions for assault
on a peace officer and aggravated fleeing bar her
§ 1983 claims because her claims, if successful, would
render her convictions invalid. Id. Ms. Torres counters that the Court should not consider Ms. Torres’s
no-contest pleas, but even if it does, her convictions
are not necessarily inconsistent with her excessive
force claims. See Doc. 34 at 7-8, 13-15. Because I agree
that Ms. Torres’s convictions are not necessarily inconsistent with her excessive force claims, I deny defendants’ motion.

The complaint mistakenly identifies count IV as count II.
Doc. 1 at 5.

2

25a
A.

Motions to Dismiss Generally

“To withstand a motion to dismiss, a complaint
must have enough allegations of fact, taken as true,
‘to state a claim to relief that is plausible on its face.’”
Kan. Penn Gaming, LLC v. Collins, 656 F.3d 1210,
1214 (10th Cir .2011) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). While “‘a court
must accept as true all of the allegations contained in
a complaint,’” this rule does not apply to legal conclusions. Id. (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009)). “[A] plaintiff must offer specific factual allegations to support each claim.” Id. (citation omitted).
A complaint survives only if it “states a plausible
claim for relief.” Id. (citation omitted).
“Generally, a court considers only the contents of
the complaint when ruling on a 12(b)(6) motion.”
Berneike v. CitiMortgage, Inc., 708 F.3d 1141, 1146
(10th Cir. 2013). In determining whether to grant the
motion, the Court must accept all the well-pleaded allegations of the complaint as true, even if doubtful in
fact, and must construe the allegations in the light
most favorable to the plaintiff. Twombly, 550 U.S. at
555; Alvarado v. KOB-TV, LLC, 493 F.3d 1210, 1215
(10th Cir. 2007). “[A] well-pleaded complaint may proceed even if it strikes a savvy judge that actual proof
of those facts is improbable, and ‘that a recovery is
very remote and unlikely.’” Robbins v. Oklahoma, 519
F.3d 1242, 1247 (10th Cir. 2008) (quoting Twombly,
550 U.S. at 556 and Scheuer v. Rhodes, 416 U.S. 232,
236 (1974)).

26a
B.

Section 1983 Excessive Force Claims
and Qualified Immunity Generally

Section 1983 states in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of
any State … subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to
the deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress.
42 U.S.C. § 1983. To establish a claim under § 1983, a
plaintiff must allege that a defendant acted under
color of state law to deprive the plaintiff of a right,
privilege, or immunity secured by the Constitution or
the laws of the United States. West v. Atkins, 487 U.S.
42, 48 (1988). An excessive force claim is treated as a
seizure subject to the Fourth Amendment’s reasonableness requirement. Estate of Larsen ex rel. Sturdivan v. Murr, 511 F.3d 1255, 1259 (10th Cir. 2008). To
state an excessive force claim under the Fourth
Amendment, a plaintiff must allege that the force
used to effect a seizure was objectively unreasonable
under the totality of the circumstances. Id. The “‘reasonableness’ of a particular use of force must be
judged from the perspective of a reasonable officer on
the scene, rather than with the 20/20 vision of hindsight.” Id. at 1259 (quoting Graham v. Connor, 490
U.S. 386, 396 (1989)). An officer may use deadly force

27a
if a reasonable officer under similar circumstances
would have had probable cause to believe that there
was a threat of serious physical harm to the officer or
someone else. Id. at 1260.
Qualified immunity shields government officials
performing discretionary functions from liability for
civil damages unless their conduct violates clearly established statutory or constitutional rights of which a
reasonable person would be aware. Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). Under the Tenth Circuit’s two-part test for evaluating qualified immunity,
the plaintiff must show (1) that the defendant’s conduct violated a constitutional or statutory right, and
(2) that the law governing the conduct was clearly established when the alleged violation occurred. Baptiste v. J.C. Penney Co., 147 F.3d 1252, 1255 (10th Cir.
1998); accord Tonkovich v. Kan. Bd. of Regents, 159
F.3d 504, 516 (10th Cir. 1998). For a right to be clearly
established, “[t]he contours of the right must be sufficiently clear that a reasonable official would understand that what he [or she] is doing violates that
right.” Anderson v. Creighton, 483 U.S. 635, 640
(1987). Unless both prongs are satisfied, the defendant will not be required to “engage in expensive and
time consuming preparation to defend the suit on its
merits.” Siegert v. Gilley, 500 U.S. 226, 232 (1991).
C.

The Heck Doctrine and its Application
to this Case

In Heck, the Supreme Court held that a plaintiff
cannot bring a § 1983 civil rights claim based on actions whose unlawfulness would render an existing

28a
criminal conviction invalid. 512 U.S. at 486-87. If, on
the other hand, a court determines that a plaintiff’s
civil rights claim, even if successful, would not necessarily demonstrate the invalidity of a criminal conviction, the action may proceed absent some other bar to
the suit. Id. at 487.
The defendants’ sole argument for dismissing
Ms. Torres’s complaint is that if her excessive force
claim is successful, it necessarily would invalidate her
March 2015 convictions for assault on a peace officer
and aggravated fleeing. See Doc. 32 at 5-9; Doc. 36 at
2-5. They urge the Court to dismiss Ms. Torres’s complaint because, they say, Ms. Torres’s “convictions
conclusively establish that she willfully and carelessly drove her vehicle, that she endangered the life
of another person after being told to stop, that the officers were in lawful discharge of their duties at the
time, and that her actions caused a police officer to
reasonably believe that a battery was imminent.”
Doc. 36 at 6. Thus, according to defendants, Officers
Madrid and Williamson necessarily acted reasonably
under the circumstances, and they therefore are entitled to qualified immunity.
The main problem with defendants’ argument is
that the Court only may consider the facts alleged in
Ms. Torres’s complaint in deciding defendants’ motion. See FED. R. CIV. P. 12(d); Berneike, 708 F.3d at
1146. Even if the Court considers the plea agreement
attached to defendants’ motion, it is not evident,
based solely on the pleadings and the plea agreement,
that the unlawful actions attributed to Officers Madrid and Williamson in Ms. Torres’s complaint

29a
necessarily would render Ms. Torres’s assault and aggravated fleeing convictions invalid.
As the Tenth Circuit explained in Havens v. Johnson, 783 F.3d 776, 782 (10th Cir. 2015)—a case on
which defendants heavily rely—”[a]n excessive-force
claim against an officer is not necessarily inconsistent
with a conviction for assaulting the officer.” A claim
that an officer used too much force in response to an
assault, or that the officer used force after the need
for force disappeared, for example, would not invalidate an assault conviction. Id. To determine the effect
of Heck on an excessive-force claim, the court must
compare the plaintiff’s allegations in the complaint to
the plaintiff’s prior criminal offense. Id. If the theory
of the plaintiff’s claim is inconsistent with the prior
conviction, the excessive-force claim would be barred
in its entirety. Id.
In this case, Ms. Torres’s complaint does not mention her criminal convictions at all. See Doc. 1. Thus,
although the parties disagree as to whether the court
may consider the plea agreement attached to defendants’ motion, even if the Court considers it, the information in the plea agreement does not make clear
that Ms. Torres’s claims are inconsistent with her
convictions. Importantly, the plea agreement provides few details of the offenses that Ms. Torres committed. It does not disclose which officer Ms. Torres
assaulted. It is unclear whether the officer Ms. Torres
assaulted was, in fact, Officer Madrid, Officer Williamson, another officer at the apartment complex, or
some other officer she encountered during a separate
incident on or about July 15, 2014. See Doc. 32-1.

30a
Likewise, the plea agreement does not disclose
whether Ms. Torres fled from Officer Madrid, Officer Williamson, another officer at the scene, or some
other officer she encountered later that day. See id.
Although defendants make much of the fact that
Ms. Torres’s assault conviction establishes that the
police officer whom she assaulted must have been assaulted while in the lawful discharge of his or her duties, see Doc. 32 at 6, the plea agreement does not establish that either Officer Madrid or Officer Williamson, or any other officer in their presence, was the officer whom Ms. Torres assaulted. See Doc. 32-1. Thus,
Ms. Torres’s claim that the officers shot at her for no
lawful reason is not necessarily inconsistent with the
information in the plea agreement about her assault
conviction. Similarly, although Ms. Torres’s conviction for aggravated fleeing may establish that she
willfully and carelessly drove her vehicle in a manner
that endangered the life of another person after being
given a signal to stop, see Doc. 32 at 8, it is not evident
from the plea agreement that either Officer Madrid or
Officer Williamson shot at her in reaction to her aggravated fleeing. See Doc. 32-1. In short, the pleadings themselves, even when considered in conjunction
with the plea agreement showing Ms. Torres’s convictions, do not provide sufficient information for the
Court to conclude that the Heck doctrine bars
Ms. Torres’s claims. The Court therefore will deny defendants’ motion.
IV. Conclusion
For the foregoing reasons, the Court DENIES Defendants’ Motion to Dismiss or Motion for Judgment

31a
on the Pleadings on Plaintiff’s Complaint on the Basis
of Qualified Immunity and Other Grounds (Doc. 32).
IT IS SO ORDERED.
/s/ Laura Fashing
Laura Fashing
United States Magistrate Judge

